                                                          Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            Of Transportation
            Office of Inspector General
Subject:    INFORMATION: Revised Notification of the                   Date:    March 4, 2004
            Audit of Federal Highway Administration’s Cost
            Recovery Actions
            Project Number: 03M3016M000


    From:   Debra S. Ritt                                            Reply to   JA-40
                                                                     Attn of:
            Assistant Inspector General
              for Surface and Maritime Programs

    To:     Federal Highway Administrator

            On October 14, 2003, the Office of Inspector General announced its audit of the
            Federal Highway Administration’s (FHWA) actions to recover costs resulting
            from design errors and/or omissions on major projects. The objectives were to
            evaluate FHWA’s oversight of states’ processes and procedures for controlling,
            identifying, and tracking errors and/or omissions on major projects; and the
            progress made by FHWA and the states in recovering costs resulting from design
            errors and/or omissions. The scope of the audit was limited to major highway
            projects with an estimated total cost of $1 billion or more, or projects
            approaching $1 billion, with a high level of interest for the public, Congress, or
            the Administration.

            Based on the results of our audit survey, the Office of Inspector General is
            expanding the audit scope to all Federal-aid highway projects, not just major
            projects, to increase opportunities for identifying cost recoveries. As stated in
            the October 14, 2003 announcement memorandum, the audit will not include an
            assessment of the cost recovery efforts on the Central Artery/Tunnel Project,
            which will be addressed in the current audit of the 2003 Central Artery/Tunnel
            Finance Plan.

            As discussed at the October 23, 2003 entrance conference with members of your
            staff, we will conduct the audit at FHWA offices in Washington, D.C., selected
            division offices, project offices and state highway agencies, and other locations
            to be determined during the audit.
The Program Director for this audit is Jim H. Crumpacker, and the Project
Manager is Lorretta Swanson. If you have any questions or require additional
information, please contact me at (202) 493-0331 or Jim at (202) 366-1420.

                                        #
cc:   FHWA, Executive Director, HOA-3
      FHWA Audit Liaison, HAIM-13
      OST Audit Liaison, M-1




                                                                          2
